Audit of Benefits to Individuals and Organizations
by USAID/Colombia Under Its Human Rights
Protection Program

Audit Report No. 1-514-04-008-P

June 21, 2004




                San Salvador, El Salvador
June 21, 2004

MEMORANDUM
FOR:            USAID/Colombia Director, J. Michael Deal

FROM:           RIG/San Salvador, Steven H. Bernstein “/s/”

SUBJECT:        Audit of Benefits to Individuals and Organizations by
                USAID/Colombia Under Its Human Rights Protection Program
                (Report No. 1-514-04-008-P)

This memorandum transmits our report on the subject audit. In finalizing this report,
we considered your comments on our draft report and have included your response
in Appendix II.

The report includes five recommendations for your action as follows: improve
record-keeping; more clearly define approved purposes for cash, cell phones, and
radios; develop procedures on conducting periodic reviews; maintain files on
rejected applicants; and provide more accurate and consistent protection program
information. Based on your comments, management decisions have been reached
for all five recommendations. A determination of final action will be made by the
Bureau for Management’s Office of Management Planning and Innovation
(M/MPI/MIC).

Once again, thank you for the cooperation and courtesy extended to my staff
throughout the audit.




                                                                                   1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                     5
Contents
           Background                                                              6

           Audit Objectives                                                        6

           Audit Findings                                                          7

                  Did the Government of Colombia follow approved criteria
                  and procedures when providing benefits under its human
                  rights protection program?                                       7

                           Record-Keeping Was Inadequate                           7

                  Did beneficiaries of USAID/Colombia’s human rights protection
                  program use the awards received for approved purposes?          8

                           Approved Purposes Were Not Clearly Documented
                           For Cash, Cell Phones, and Radios                       9

                           Procedures on Conducting Periodic Reviews Were
                           Unclear                                                11

           Other Matters                                                          12

                  Files on Rejected Applicants Were Not Maintained                12

                  Protection Program Data Were Inaccurate and Inconsistent        13

           Management Comments and Our Evaluation                                 14

           Appendix I - Scope and Methodology                                     15

           Appendix II - Management Comments                                      17




                                                                                       3
This page intentionally left blank.




                                      4
Summary of   As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine if 1) the Government of Colombia
             (GOC) followed approved criteria and procedures when providing benefits under
             its human rights protection program and 2) beneficiaries of the protection
             program used the awards received for approved purposes (page 6).

             We were not able to fully answer the first objective. The GOC followed approved
             criteria and procedures for selecting offices to be armored; however, for other
             types of benefits, we were unable to determine if they were given properly. The
             GOC did not keep organized records for each beneficiary. Therefore, we were
             unable to review documentation needed to demonstrate whether the GOC was
             following selection criteria and procedures when providing benefits under its
             human rights protection program (page 7).

             We were unable to fully answer the second audit objective either. Although we
             verified that the offices were armored as approved, we could not determine if the
             other awards were used for approved purposes. The GOC’s Ministry of Interior
             and Justice could not provide the information needed to contact the beneficiaries.
             Therefore, we could not state positively that all the awards received were being
             used for the intended purposes (page 8). Based on the information provided,
             however, the following problem areas came to our attention:

                    1)      approved uses for cash, cell phones, and radios were not clearly
                            documented (page 9); and

                    2)      procedures for conducting periodic reviews of each protection
                            measure were not clearly defined (page 11).

             Two other issues, which were not directly related to the audit objectives, were
             identified. First, records were not kept on rejected applicants. Second, protection
             program data were inaccurate and inconsistent (page 12-14).

             We made five recommendations as follows: improve record-keeping; more
             clearly define approved purposes for cash, cell phones, and radios; develop
             procedures on conducting periodic reviews; maintain files on rejected applicants;
             and provide more accurate and consistent protection program information (pages
             8-14).

             USAID/Colombia agreed with the findings and recommendations presented in
             this report.  Accordingly, management decisions were made for the
             recommendations (page 17).




                                                                                              5
Background   USAID/Colombia’s fiscal year 2000-2005 strategic plan established the objective
             to “promote more responsive, participatory, and accountable democracy,” which
             included human rights activities. The human rights program responded to a
             severe human rights crisis in Colombia manifest in political killings, kidnappings,
             and massacres. One of the three main components under USAID/Colombia’s
             human rights program was to provide protection to individuals and groups under
             threat for their political beliefs, human rights activities, or membership in an
             ethnic minority. This component was designed to strengthen and expand an
             existing protection program in the Government of Colombia’s Ministry of Interior
             and Justice (MOIJ). The program provided protection to threatened individuals in
             the form of “hard protection” (i.e., bullet-proof vests, metal detectors, vehicles,
             and armoring of offices) and/or “soft protection” (i.e., economic assistance,
             national relocation, cellular phones, radios, and international relocation).

             The Government of Colombia created the protection program in mid-1997. The
             assistance area of the human rights program has been administered by the Human
             Rights Office within the MOIJ. In particular, a Risk Regulation and Evaluation
             Committee, comprised of key Colombian officials, evaluated protection program
             applicants, analyzed risk assessments and threat levels, and recommended the
             type of benefit that should be given.

             USAID/Colombia’s primary role in the protection program has been to provide
             the financial assistance to strengthen the protection program by funding awards
             approved by the evaluation committee. USAID/Colombia has also provided
             technical assistance aimed at strengthening the operation of the program. Its
             involvement in the process has been minimal with regard to the approval,
             processing, and monitoring of benefits. An agreement between USAID and the
             MOIJ implied that USAID was not to have direct contact with the beneficiaries.

             USAID/Colombia contracted with Management Sciences for Development to
             manage the human rights program beginning in March 27, 2001 until March 26,
             2006. Through December 31, 2003, approximately $5 million had been disbursed
             from USAID/Colombia’s total protection program budget of about $11 million.
             In general, the Mission contributed about 16 percent of the total protection
             program budget, with the rest of the funds coming from the Government of
             Colombia. As of December 31, 2003, USAID/Colombia reportedly provided
             5,945 protection measures to a total of 3,293 beneficiaries and armored 77 offices.



Audit        As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Objectives   Salvador performed this audit to answer the following questions:


                                                                                              6
           •   Did the Government of Colombia follow approved criteria and procedures
               when providing benefits under its human rights protection program?

           •   Did beneficiaries of USAID/Colombia’s human rights protection program use
               the awards received for approved purposes?

           The audit scope and methodology are presented in Appendix I.




Audit      Did the Government of Colombia follow approved criteria and procedures
Findings   when providing benefits under its human rights protection program?

           We were not able to answer this objective because the Government of Colombia
           was unable to provide us with the documentation needed to demonstrate that
           criteria and procedures were followed, except in the case of armored offices. For
           all 10 of the armored offices we reviewed (selected from a population of 77
           offices protected), the Government of Colombia followed approved criteria and
           procedures. Documents revealed that risk assessments were performed, each
           component on an itemized list was installed, contracts between USAID and the
           offices were signed, and approval was authorized from the evaluation committee.
           Although we were unable to determine if criteria and procedures were followed
           for other benefits, we were able to report that record-keeping was inadequate.

           Record-Keeping Was Inadequate

           Colombian law and decrees established three general criteria for entry into the
           protection program. Each beneficiary must 1) belong to a protected group, 2)
           have a risk assessment to verify the threat level, and 3) hold a position that is
           linked to the threat. Qualified applicants that met these three general criteria were
           approved by the Risk Regulation and Evaluation Committee, which was
           comprised of key Colombian officials. The committee recorded the approval of
           cases by signing “actas”, or meeting minutes.

           Inadequate record-keeping became apparent when we attempted to review the
           basis for the committee’s approval as documented in the meeting minutes. MOIJ
           officials explained that some of the documentation had been misplaced due to
           poor record-keeping. They acknowledged that files were not well organized as
           each file contained different types of documents and that the documents were not
           filed in a uniform order. Furthermore, information on individual beneficiaries
           could be found in separate file cabinets throughout the office. Several files were
           missing important documents while others contained unnecessary documents.
           Despite assistance from MOIJ officials, it was difficult to determine, by looking at
           the file, what was unintentionally missing and what was missing for a valid
           reason. For example, in reviewing documentation for 90 cases (excluding the 10
           armored offices) with the assistance of MOIJ officials, nine cases did not contain
                                                                                              7
evidence that the beneficiary belonged to a protected group. Thirty-eight cases
were missing the risk assessments. Also, the files often contained information
regarding more than one protection measure, making it difficult to determine
which document belonged to which case.

USAID/Colombia officials stated that supporting documentation existed but had
been misplaced and expressed confidence in the selection process. Therefore,
USAID officials attributed inadequate record-keeping for the absence of evidence
that the three requirements above have been met.

The U.S. General Accounting Office’s Standards for Internal Control in the
Federal Government, November 1999, states that “all transactions and other
significant events need to be clearly documented, and the documentation should
be readily available for examination…. All documentation and records should be
properly managed and maintained.” The MOIJ’s procedures manual also defined
the required documentation that must be maintained by the program.

The MOIJ has acknowledged deficiencies in this area and requested assistance in
establishing an advanced information management system. This system is a key
part of the MOIJ’s ongoing plan to reorganize and improve the way
documentation is stored and accessed. The system was to become a basic support
tool to handle documents, to manage and process requests, and to implement and
monitor measures. It included a specific unit for the “file system” to enable the
systematization of information to support timely and transparent decision-making.
Although the system was accepted on May 31, 2003, the process of migrating
historical data will last until October 2004.

Important records should be readily accessible so that the basis for approving an
applicant is transparent and so that periodic reviews may be performed.
Incomplete beneficiary records may lead to unnecessary delays, incorrect
decision-making, and difficulties in reviewing cases. It can also be an indicator
for the possibility of fraud.

       Recommendation No. 1:               We recommend that
       USAID/Colombia require the Ministry of Interior and Justice
       to systematically file documentation to justify the proper
       selection of beneficiaries for entry into the human rights
       protection program.

Did beneficiaries of USAID/Colombia’s human rights protection program
use the awards received for approved purposes?

Except for the case of armored offices, we were not able to answer this objective
because the MOIJ was unable to provide us with the phone numbers of
beneficiaries—information that was essential for us to render a professional
opinion. Nevertheless, phone numbers were not needed to verify that all 10
offices tested, out of 77 offices in total, were properly armored. We visited four

                                                                                8
of the 10 offices to ascertain the existence of each item that was installed to
protect the office. For all 10 offices, our review of the documentation, including
before and after pictures, concluded that they were armored as approved by the
evaluation committee. Armoring an office may consist of installing steel doors,
shatter-proof windows, and security cameras.

We could not contact approximately 50 percent of the beneficiaries as phone
numbers for them were not readily available in the MOIJ office. According to
MOIJ officials, to acquire some of the missing numbers, the MOIJ would have to
refer to other sources (such as community leaders, employers, and other
agencies).

Furthermore, over 75 percent of the calls we made resulted in three possibilities:
the call was not answered, the beneficiary was unavailable, or the number
provided was incorrect. As a result, we spoke to 23 of the 144 beneficiaries we
attempted to reach1. Therefore, we could not confirm with beneficiaries that
awards were being used for their intended purposes, except in the case of armored
offices.

The phone call limitation did not preclude us from reporting on two problem areas
that came to our attention. These problems were that approved purposes were not
clearly documented for cash, cell phones, and radios, and procedures on
conducting periodic reviews for each protection measure were unclear.

Approved Purposes Were
Not Clearly Documented for
Cash, Cell Phones, and Radios

The protection program did not have clearly documented, approved purposes for
cash, cell phones, and radios. Neither the MOIJ, Management Sciences for
Development, nor USAID/Colombia had fully developed written guidance
outlining the approved purposes for these protection measures.

Automated Directives System (ADS) 200.3.2.1 states that “managing for results
means that we seek to define and organize our work around the end result we seek
to accomplish. This means making intended results explicit; ensuring agreement
among partners, customers, and stakeholders that proposed results are
worthwhile; and organizing our day-to-day work and interactions to achieve
results as effectively as possible.”

The need to document the program’s approved purposes for cash, radios, and cell
phones was overlooked by program officials because they felt that the existing
________________________________
1
    Even though we could not contact many beneficiaries, we did note that there were controls in place to ensure that
    awards were given to the selected beneficiary. The beneficiary had to provide identification and sign a statement prior
    to receiving cash, phones, radios, bulletproof vests, or metal detectors. Furthermore, records from the phone and radio
    companies and the travel agency were available to demonstrate that the awards were being used.


                                                                                                                         9
documentation was already adequate. Nevertheless, USAID/Colombia agreed
that stating the purposes for and the definition of each protection measure more
clearly would be helpful.

According to USAID/Colombia and Management Sciences for Development
officials, the following paragraphs describe the implied purposes of cash, cell
phones, and radios provided under the program. The implied purposes,
considered to be approved purposes by program personnel, were compared
against the purposes that were described in MOIJ’s draft regulation document.2

The implied purpose for cash was to provide economic assistance to those who
had to leave their homes to be protected. The cash awards were intended for
lodging, food, transportation, utilities, and other necessities associated with
relocation. The draft regulation document only mentioned that cash was provided
for emergency relocation purposes. It did not identify what types of expenses
were acceptable or unacceptable.

The implied purpose for cell phones and radios was to allow the beneficiary to
contact others for immediate assistance to protect the beneficiary's life. As a
preventative mechanism, cell phones and radios guaranteed safe communication
between beneficiaries and their homes, offices, and colleagues. Personal use was
expected and deemed to be acceptable. However, the draft regulation document
stated that they were to be used exclusively to contact state entities participating
in the protection program (such as the police and the network of the protected
group).

As stated above, acceptable uses for cash were not documented. In addition,
opinions differed on how much, if any, personal use should be allowed for cell
phone and radio beneficiaries. Without clearly documenting the defined purposes
for each protection measure, the possibility of improper or ineffective usage of
cash, cell phones, or radios increased. Beneficiaries may be inadvertently using
these awards improperly.

            Recommendation No. 2:             We recommend that
            USAID/Colombia require the Ministry of Interior and Justice
            to document the approved purposes for beneficiaries receiving
            cash, cell phones, and radios.




________________________________
2
    The draft regulation was the “Proyecto de Reglamentación” document dated November 2003, which is to be finalized by
    the end of 2004. Its purpose was to develop and regulate the Human Rights Protection Program.


                                                                                                                   10
Procedures on Conducting
Periodic Reviews Were Unclear

There was no written guidance that defined how periodic reviews would be
conducted for each protection measure. As each measure was different, the
approach taken and the frequency of reviews needed to be different. It is not
sufficient to report how many protection measures were delivered when there may
be insufficient follow-up done to determine whether these measures were useful
or effective. In the absence of clearly defined periodic review procedures for each
protection measure, some of the following scenarios could exist:

•      The beneficiary could give the protection measure to someone else (in the
       case of cash, phones, radios, vests, and metal detectors).

•      The beneficiary may not be using the benefit enough, if at all (in the case
       of vests, metal detectors, armored offices, and vehicles).

•      The beneficiary could be using the benefit for unintended purposes (in the
       case of cash, phones, radios, and vehicles).

•      The beneficiary could no longer need the protection measure (in the case
       of cash, phones, radios, vests, metal detectors, and vehicles).

Despite the lack of clear guidance, the MOIJ performed some limited follow-up
of some protection measures during 2003 including the following:

•      Cell phones and radios − The MOIJ attempted to verify that phones and
       radios were being answered by the approved beneficiary as evidenced by
       calling logs. In 2003, the MOIJ called about 70 to 80 percent of the
       beneficiaries, and if no answer was received after three attempts on
       different days, the service was disconnected. The purpose of the calls was
       to verify that the beneficiary had the phone or radio. USAID officials also
       explained that the MOIJ also required phone and radio providers to
       produce a report on equipment that was not being used. Service for those
       on this list was disconnected.

•      Bullet-proof Vests – The MOIJ informed us that they followed-up on the
       use of vests during meetings with beneficiaries. In addition, self-
       protection courses reinforced the need to use protection measures such as
       the vest.

•      Armoring of Offices – The MOIJ stated that follow-up was done on
       armored offices only when the office reported a problem.

USAID/Colombia officials believed that these actions were sufficient. They
believed that the protection measures were effective because the level of threats
have diminished, and there have only been nine reported deaths out of over 3,000
                                                                                11
          individuals protected. However, the Mission agreed that details on conducting
          periodic reviews should be documented.

          While it may not be cost effective to review all beneficiaries, up-front controls
          could be designed to mitigate the risks that these benefits could be misused, and it
          may be reasonable to test a sample of beneficiaries. In addition, while it may not
          be cost effective to review the usage of cash, airline tickets, and armored offices,
          it may be reasonable to review the usage and effectiveness of the other protection
          measures. While it was easy to review armored offices in Bogota, most of the
          other offices were located further away in less secure areas of the country.

          According to the MOIJ´s draft regulation document, the MOIJ was responsible for
          reviewing each case at least every six months. The Government of Colombia’s
          Law 782, which became effective in December 2002, stated that cases must be
          reviewed “periodically.” In addition to the program’s requirements for periodic
          reviews, ADS 202.3.6.2, states that “use of customer feedback is essential.
          Strategic Objective Teams should develop mechanisms to ensure that partners
          share the Agency’s commitment to customer focus and that an effective feedback
          loop exists to bring customer information into management decisions.” In order
          to conduct periodic reviews on a consistent basis, the program must define when
          and how they are to be performed.

                 Recommendation No. 3:                 We recommend that
                 USAID/Colombia require the Ministry of Interior and Justice
                 to (a) clearly define when and how periodic reviews should be
                 performed for each protection measure and (b) develop a
                 system to ensure that this periodic review takes place.



Other     Two matters that were not directly related to the audit objectives, but were
          significant enough to be reported, were that files on rejected applicants were not
Matters
          maintained and protection program data were inconsistent and inaccurate.

          Files on Rejected Applicants
          Were Not Maintained

          The Ministry of Interior and Justice (MOIJ) did not maintain files on applications
          that were rejected before being reviewed by the evaluation committee. MOIJ
          officials explained that there was no formal procedure for documenting reasons
          for rejecting applicants, but that in these cases, a rejection letter was sent.
          Management Sciences for Development later added that those rejection letters
          were registered in the MOIJ’s physical files; however, due to weaknesses in
          record-keeping, they were not readily accessible. Most rejections resulted from
          the beneficiary not belonging in one of the approved protection classes.



                                                                                           12
As stated on page 8, the General Accounting Office’s Internal Controls Standards
states that all significant events need to be clearly documented, and the
documentation should be readily available for examination. It is important to
maintain these records so that the decision to reject an applicant can be reviewed
and independently verified. Without information on rejected applicants, it is not
possible to determine whether qualified applicants have been incorrectly rejected
without sufficient cause. As a result, an applicant’s life may be at risk after being
incorrectly denied a protection measure.

       Recommendation No. 4:            We recommend that
       USAID/Colombia require the Ministry of Interior and Justice
       to maintain documentation on the basis for rejecting each
       applicant.

Protection Program Data Were
Inaccurate and Inconsistent

The MOIJ and Management Sciences for Development (MSD) each had their
own database to manage cases and keep track of approved beneficiaries and
awards. MSD also reported protection measures and approved beneficiaries to
USAID/Colombia via a weekly report. However, the numbers of protection
measures and beneficiaries reported by each of the three organizations were
different, partly due to the fact that different criteria was used for counting
beneficiaries and protection measures. The measures (not including metal
detectors and vests) reported by the three sources in calendar year 2003 were as
follows:

 Table 1 – Protection Measures as Reported by Each Source

               Source                             No. of Protection Measures
 MOIJ Database                                               1,768
 MSD Database                                                1,539
 USAID Weekly Report                                         1,577

While reviewing the differences noted in Table 1, MSD discovered that each
source of data was missing approved protection measures. The MSD database
contained beneficiaries that the MOIJ database did not have and vice versa.
Therefore, the true numbers of beneficiaries and protection measures provided by
the program were understated.

Furthermore, the dates for inclusion used in each of the three sources were
inconsistent. For example, the USAID weekly report recorded hard benefits
(vehicles, metal detectors and bullet-proof vests) based on the date of delivery to
the MOIJ while soft benefits were based on the date of delivery to the beneficiary.
The date that the MOIJ actually delivered the benefit to the beneficiary could
have been several months later. Another example was that the MOIJ database
recorded cash and airline tickets based on the date requests were sent to MSD,
                                                                                  13
             while other protection measures were recorded based on the dates that benefits
             were actually delivered to the beneficiary.

             According to MSD’s contract with USAID, MSD must measure through
             appropriate indicators the achievement of results. ADS 203.3.5.3 further explains
             that USAID should “review data collection, maintenance, and processing
             procedures to ensure that the procedures are consistently applied and continue to
             be adequate.” ADS 202.3.6 adds that “monitoring the quality and timeliness of
             outputs produced by implementing partners is a major task.... Problems in output
             quality provide an early warning that results may not be achieved as planned.”

             According to a MOIJ official, the three sources of information had different
             criteria for inclusion. Therefore, there was a logical explanation for some of the
             differences reported above. Although the MOIJ and MSD knew that the
             information would not be equal, they did not recognize that all three sources of
             information were incomplete. With the exception of international airline tickets,
             vehicles, and armored offices, USAID/Colombia did not verify the accuracy of
             the numbers of protection measures and beneficiaries reported by MSD because it
             relied on MSD to report correct numbers.

             According to a MSD official, the MOIJ and MSD were in the process of
             reconciling the three sources. Afterwards, they intended to update all three
             sources of information and distinguish measures approved by the MOIJ, measures
             submitted by the MOIJ to MSD, and measures effectively delivered. They further
             planned to design processes and procedures to improve the reporting of
             information.

                    Recommendation No. 5:               We recommend that
                    USAID/Colombia (a) establish a procedure to verify the
                    accuracy of all protection program data provided by
                    Management Sciences for Development and (b) request that
                    Management Sciences for Development and the Ministry of
                    Interior and Justice reconcile their databases and develop a
                    process to ensure that their reported data continues to be
                    accurate and consistent.



Management   USAID/Colombia agreed with the findings and recommendations presented in this
Comments     report. Accordingly, management decisions were made for the recommendations.
and Our      The Mission’s comments are included in their entirety in Appendix II.
             Determination of final actions will be made by the Bureau for Management’s Office
Evaluation   of Management Planning and Innovation (M/MPI/MIC).




                                                                                            14
                                                                                     Appendix I


Scope and     Scope
Methodology
              We audited the process of selecting beneficiaries and the use of benefits provided
              to individuals and organizations by USAID/Colombia under its human rights
              protection program in accordance with generally accepted government auditing
              standards. However, the Ministry of Interior and Justice (MOIJ) was unable to
              provide us with the documentation required to review beneficiary files and the
              correct phone numbers of the beneficiaries. Both of these were essential for us to
              answer our audit objectives. Regarding the armoring of offices, the documentation
              was available. Nonetheless, we were unable to fully answer either audit objective.
              The MOIJ’s inability to provide us with the documentation on other applicants and
              its inability to provide phone numbers within a reasonable time constituted
              limitations on the scope of the audit.

              Without receiving documentation on the applicants, we could not determine if the
              MOIJ followed approved criteria and procedures when providing benefits under
              the protection program. Similarly, without speaking to the beneficiaries, we could
              not determine if the awards received by the beneficiaries were being used for their
              intended purposes. While we could not render a positive conclusion, the scope
              limitations did not preclude us from reporting on problem areas that came to our
              attention.

              We assessed risk exposure and tested management controls at USAID/Colombia,
              Management Sciences for Development, and the MOIJ to ensure that benefits
              were being provided and used in accordance with the established criteria. Some
              specific management controls tested included the following:

                 •    A travel agency report ensured that beneficiary names and destinations
                      were clearly identified.

                 •    Forms signed by beneficiaries demonstrated that a live person received the
                      awarded radio, cell phone, or bulletproof vest.

                 •    Files containing applications, letters, and other correspondence related to
                      protection program selection demonstrated that the files were incomplete
                      and unorganized.

                 •    Actas, or meeting minutes, ensured that the selection committee agreed to
                      assist the beneficiary.

              The audit was conducted at the offices of USAID/Colombia, the MOIJ,
              Management Sciences for Development, and at four armored offices throughout
              Bogotá from January 13 to February 12, 2004. Additional analysis, follow-up,
              and review were conducted at RIG/San Salvador until May 10, 2004.
                                                                                              15
Our audit covered protection program benefits approved during calendar year
2003, during which time the protection program disbursed $1,734,000. We
reviewed only the hard and soft benefits provided under the protection program.
All protection measures were covered except vehicles, since none were purchased
during 2003. Other aspects of the protection program -- such as training, support
to the MOIJ, and construction of a radio communications network -- were not
covered by our audit.

Methodology

To answer the first objective, we reviewed agreements and other documents
between and within USAID/Colombia, Management Sciences for Development,
and the MOIJ to ascertain the criteria and procedures being followed in providing
benefits under the protection program. Such documents included applicable
Colombian laws, resolutions, regulations, and Management Sciences for
Development’s quarterly reports. We also reviewed available documentation of
all the selected beneficiaries. We interviewed officials from USAID/Colombia,
Management Sciences for Development, and the MOIJ to clarify our
understanding of the documentation reviewed and to inquire about issues that
were not specified in the documentation.

We selected a statistical sample of 81 out of 2,043 cases (including 77 cases of
armored offices) during calendar year 2003 from the MOIJ database, using a 95
percent confidence level with a 4% precision rate. We selected 19 more cases for
additional representation of the selected sample in order to ensure that all types of
awards were reviewed adequately. In total, we reviewed the available
documentation on 100 cases, including 10 armored offices.

To answer the second objective, we interviewed program officials and reviewed
documentation to determine the approved and implied purpose for each award.
We attempted to contact the beneficiaries to inquire about how benefits were
actually used. According to an agreement between USAID/Colombia and the
Government of Colombia, beneficiaries were to interact exclusively with the
MOIJ due to the sensitive nature of the program. Therefore, we agreed to make
calls in conjunction with a MOIJ representative using the speakerphone function.
As stated above, our audit scope was limited, as we were unable to obtain the
correct phone numbers for all the selected beneficiaries. We also inquired about
efforts made to periodically review case files to ensure that benefits were still
being used. Lack of documentation limited the steps we could take to answer the
objective.

We used the same 100 cases selected from objective one for objective two;
however, due to the unavailability of the phone numbers, we attempted to contact
any beneficiary that the MOIJ could provide numbers for, including those outside
of the sample. We contacted 23 out of 144 beneficiaries before concluding that
further attempts would not be worthwhile.

                                                                                  16
                                                                                     Appendix II


Management
Comments


                                                             June 10, 2004



        Mr. Steven H. Bernstein
        USAID Regional Inspector General
        San Salvador
        FAX No. (503) 228-5459


        Dear Steve:

                       The Mission has reviewed the draft Audit of Benefits to Individuals and
        Organizations by USAID/Colombia Under Its Human Rights Protection Program (Report
        No. 1-514-04-XXX-P). We concur with the Recommendations of the Audit. We will
        share the audit recommendations and ask the Ministry of Interior and Justice to improve
        its record keeping for the program; clearly define the approved purposes for cash and
        other program benefits; develop procedures for periodic program reviews; maintain files
        on rejected applicants; and provide more accurate and consistent protection program
        information. To implement Recommendation No. 5, the Mission will review with
        Management Sciences for Development and the Ministry the different criteria used for
        reporting and develop uniform criteria to be used for reporting by the three organizations.
        The Mission will also ask Management Sciences for Development to reconcile the
        current data bases so that they are consistent.

        We believe these actions will resolve the concerns raised by the Audit.

        Yours truly,



                                                             Michael Deal
                                                             Director




                                                                                                17
